CERTIFICATE OF COUNSEL/
SELF- REPRESENTED PETITIONER
I, Dr. Lakshmi Arunachalam, petitioner pro se, certify
that as per the Court rules, this document contains
6995 words only, as counted by the tool available in
Microsoft WORD, and is well within the allowed word
limit.
Respectfully submitted,

Dr. Lakshmi Arunachalam, a woman,
SELF REPRESENTED PETITIONER
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995; laks22002@yahoo.com
February 18, 2021

36

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare
under penalty of perjury that the foregoing is true
and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Petitioner
Executed on February 18, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

